NATIONAL ENDOWMENT FOR THE ARTS
    OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO THE CONGRESS

   APRIL 1, 2011 – SEPTEMBER 30, 2011
SEMIANNUAL REPORT TO THE CONGRESS

    APRIL 1, 2011 – SEPTEMBER 30, 2011

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                                        October 31, 2011



MEMORANDUM

TO:           Rocco Landesman
              Chairman

FROM:         Tonie Jones
              Inspector General

SUBJECT:      Semiannual Report to the Congress: April 1, 2011 – September 30, 2011

The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App.), calls for the
preparation of semiannual reports to the Congress summarizing the activities of the Office of
Inspector General (OIG) for the six-month periods ending each March 31 and September 30. I
am pleased to enclose the report for the period from April 1, 2011 to September 30, 2011.

The Inspector General’s report is intended to cover audits, inspections, evaluations,
investigations and other reviews conducted by the OIG as well as our review of the OMB
Circular A-133 audits conducted by independent auditors. The report also indicates the status
of management decisions whether to implement or not to implement recommendations made
by the OIG. The former President’s Council on Integrity and Efficiency developed the reporting
formats for Tables I and II to ensure consistent presentation by the Federal agencies. The
tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress
within 30 days of receipt, together with any comments you may wish to make. Comments that
you might offer should be included in your "Report on Final Action," a management report that
is required to be submitted along with the Inspector General’s report. We will work closely with
your staff to assist in the preparation of the management report. The due date for submission
of both reports to Congress is November 30, 2011.

I appreciate the continuing support we have received from the Chairman’s Office and your
managers throughout the Agency. Working together, I believe we have taken positive steps to
improve Agency programs and operations. We look forward to continuing these efforts.
                                 TABLE OF CONTENTS
                                                                                   PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                      1

OFFICE OF INSPECTOR GENERAL                                                          1

SUMMARY OF WORK COMPLETED BY THE OIG                                                 2

   Audits/Inspections/Evaluations/Reviews                                            2
   Audit Resolution                                                                  2
   Inspections                                                                       2
   Audit of the NEA Fiscal Year 2011 Financial Statements                            2
   NEA’s Compliance with the Federal Information Security Management Act of 2002     2
   Review of Legislation, Rules, Regulations and Other Issuances                     3
   Technical Assistance                                                              3
   Web Site                                                                          3
   Other Activities                                                                  3
   Strategic Plan & Five Year Audit Plan                                             4

SECTIONS OF REPORT                                                                   5

   SECTION 1 - Significant Problems, Abuses and Deficiencies                         5

   SECTION 2 - Recommendations for Corrective Action                                 5

   SECTION 3 - Recommendations in Previous Reports on Which
                 Corrective Action Has Not Been Implemented                          5

   SECTION 4 - Matters Referred to Prosecuting Authorities                           5

   SECTION 5 - Denials of Access to Records                                          5

   SECTION 6 - Listing of Reports Issued                                             6

   SECTION 7 - Listing of Particularly Significant Reports                           7

   SECTION 8 - Statistical Tables Showing Total Number of Audit Reports
                 and the Dollar Value of Questioned Costs                            7

   SECTION 9 - Statistical Tables Showing Total Number of Audit Reports
                 and the Dollar Value of Recommendations that Funds be
                 Put to Better Use by Management                                     7

   SECTION 10 - Audit Reports Issued Before the Commencement of the Reporting
                 Period for Which No Management Decision Has Been Made by
                 the End of the Reporting Period                                     7
                                   TABLE OF CONTENTS


                                                                                         PAGE

     SECTION 11 - Significant Revised Management Decisions Made During the Period           7

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       7

TABLE I - Inspector General Issued Reports With Questioned Costs                            8

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                          9

Definitions of Terms Used                                                           Appendix A

Strategic Plan & Five-Year Audit Plan 2012 – 2016                                   Appendix B
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) offers assistance to a wide range of
non-profit organizations and individuals that carry out arts programming, as well as to state arts
agencies. The NEA supports exemplary projects of excellence in the artistic disciplines of artist
communities, dance, design, folk and traditional arts, literature, media arts, museums, music, musical
theater, opera, presenting, theater, and visual arts, as well as for arts education projects and local arts
agencies. Grants are awarded for specific projects rather than for general operating or seasonal
support. Most NEA grants are matched dollar for dollar with non-federal funds. In addition, the NEA
received $50 million in 2009 under the American Recovery and Reinvestment Act of 2009 (Recovery
Act); these additional funds do not require matching. For FY 2010, the NEA received $167.5 million
through the Department of the Interior, Environment, and Related Agencies Appropriation Act, 2010.
The NEA received $154.69 million, net a government-wide rescission of .2%, through the Department
of Defense and Full-Year Continuing Appropriations Act, 2011.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App.), established independent,
objective units within Federal agencies for oversight purposes. In 1988, the Congress amended
the IG Act (P.L. No. 100-504) to establish statutory Inspectors General at additional departments
and agencies, as well at designated Federal entities and establishments, including the National
Endowment for the Arts. The mission of the Office of Inspector General (OIG) is to:

       -       Conduct and supervise independent and objective audits, inspections and
               evaluations relating to NEA programs and operations;

       -       Promote economy, effectiveness, and efficiency within the NEA;

       -       Prevent and detect fraud, waste, and abuse in NEA programs and operations;

       -       Review and make recommendations regarding existing and proposed legislation and
               regulations relating to NEA programs and operations; and

       -       Keep the NEA Chairman and the Congress fully and currently informed of problems
               in Agency programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 by enhancing the independence of the
Inspectors General and creating a Council of the Inspectors General on Integrity and Efficiency.

This semiannual report summarizes the OIG's major activities, initiatives, and results for the six-
month period ending September 30, 2011. The OIG consists of four full-time positions, the
Inspector General and three auditors. Currently, there are three staff members on board. The OIG
is actively recruiting to fill an auditor’s position. There is no investigator or general counsel on the




                                                                                                           1
staff. To provide a reactive investigative capability, we have a Memorandum of Understanding with
the Inspector General of the General Services Administration (GSA) whereby the GSA's OIG
agrees to provide investigative coverage for us on a reimbursable basis as needed. (No
investigative coverage from GSA was needed during the recent six-month period.) We also have a
Memorandum of Understanding with the National Credit Union Administration’s (NCUA) Office of
Inspector General that details procedures to be used for providing the OIG with legal services
pursuant to the new requirements reflected in the 2008 Act. An NCUA OIG staff member has been
assigned to provide such services on an as-needed basis.

SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending September 30, 2011, the OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, the OIG issued three reports and two memoranda which
contained 23 recommendations based on evaluations performed by OIG personnel. One
recommendation was related to systems deficiencies at the NEA, which was cleared during this
reporting period. Four recommendations related to NEA grantees were also cleared during this
reporting period. Corrective actions for the 18 recommendations in the remaining two reports to
NEA grantees are in process.

Audit Resolution

At the beginning of the six-month period, there were four reports awaiting management decisions
to allow or disallow questioned costs of $1,654,470 with potential refunds of $467,115. All of the
organizations submitted documentation to support the questioned costs. A management decision
was made to allow all of the questioned costs for two of the reports. A management decision was
also made to allow some of the questioned costs on one report. As a result, questioned costs were
allowed in the amount of $1,481,539, which eliminated potential refunds of $373,630. The OIG has
requested additional documentation from the two organizations with remaining questioned costs. A
management decision cannot be made until the reviews have been completed. (See Table I)

During the period, none of the newly issued reports or memoranda identified any questioned costs
or potential refunds. Therefore, at the end of the period, two reports remained outstanding with
questioned costs of $172,931 and potential refunds of $93,485. (See Table I)

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

The OIG did not open any new allegation cases during the recent six-month period. The one case
opened prior to the start of the period remained open at the end of the period.

Audit of the NEA Fiscal Year 2011 Financial Statements

The Accountability of Tax Dollars Act of 2002 requires the NEA Office of Inspector General or an
independent external auditor, as determined by the Inspector General, to audit the agency financial
                                                                                                      2
statements. Under a competitively awarded contract monitored by the OIG, Leon Snead &
Company, an independent certified public accounting and management consulting firm, received a
one year contract, with a four year option, in January 2011 to audit the NEA’s financial statements
and will be performing the 2011 audit. The audit will be conducted following Generally Accepted
Government Auditing Standards (GAGAS) and OMB Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as revised. In addition, the firm will provide reports on internal
controls and compliance with laws and regulations for matters relevant to the financial statement
audit. The report is scheduled to be issued by the November 15, 2011 deadline.

NEA’s Compliance with the Federal Information Security Management Act of 2002
(FISMA)

FISMA requires that each federal agency develop, document, and implement an agency-wide
program for providing security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by another agency,
contractor, or other source.

The OIG completed a full FISMA evaluation in FY 2010 using the most recent applicable FISMA
requirements and guidelines published by the OMB and the National Institute of Standards and
Technology. The assessment found that although NEA made progress in complying with FISMA,
some additional improvements were needed. The OIG made seven recommendations, all of which
the NEA has completed corrective actions. The FY 2011 FISMA evaluation is in process.

Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their
potential impact on the Agency and its operations. During this reporting period, the OIG provided
analyses and written commentaries on Agency and other government publications/reports and
regulations.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our
efforts included, for example, clarifying and interpreting the audit requirements of OMB Circular A-
133, “Audits of States, Local Governments, and Non-Profit Organizations," and advising some of
the first-time and smaller organizations on implementing practical accounting systems and internal
controls sufficient to assure compliance with their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site includes pages for Reports; Recovery
Act including a section for Training and Resources; Reporting Fraud, Waste and Abuse; Career
Opportunities; External Peer Reviews of the OIG and Other Resources.




                                                                                                       3
Other Activities

During this period, the OIG took part in the activities of the Council on Inspectors General for
Integrity and Efficiency (Council), and allocated resources for responding to information requests
from and for the Congress and other agencies. We have also participated in various efforts by the
Council and other federal agencies to develop effective oversight strategies for Recovery Act
activities. We continued our proactive oversight of NEA’s management of its Recovery Act funds
with an emphasis on the accuracy of data and outreach to both the staff and grant recipients.

The Government Accountability Office’s Government Accounting Standards requires audit
organizations that perform audits or attestation engagements to have an appropriate system of
quality control and to undergo external peer reviews at least once every 3 years. Federal audit
organizations can receive a rating of Pass, Pass with deficiencies, or fail. A peer review of the OIG
was conducted August 2010 by the Federal Trade Commission Office of Inspector General. The
OIG received a rating of Pass.

Strategic Plan & Five-Year Audit Plan

We have issued our Strategic Plan & Five-Year Audit Plan for the Years 2012 – 2016. Our planning
methodology is built around the concept of issue areas and issues. The issue areas are broad
categories of prime importance: they highlight the priorities of our customers - Agency
management, the Congress and the American people. The individual issues, expressed as
questions, represent an assessment of the most significant concerns facing the NEA. The
methodology also includes the formulation of annual audit work plans.




                                                                                                        4
                                SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    SECTION 2 – Recommendations for
Abuses and Deficiencies                              Corrective Action

Audits, evaluations and other reviews                To assist grantees in correcting or avoiding
conducted by OIG personnel during the                the deficiencies identified in Section 1, the
current and prior periods have disclosed a           OIG utilizes two “Financial Management
few instances of deficient financial                 Guides,” one for non-profit organizations and
management practices in some organizations           the other for state and local governments.
that received NEA grants. Among these                The guides are not offered as complete
were:                                                manuals of procedures; rather, they are
                                                     intended to provide practical information on
   Reported grant project costs did not agree        what is expected from grantees in terms of
   with the accounting records, e.g., financial      fiscal accountability. The guides are available
   status reports were not always prepared           at www.arts.gov/about/OIG/Guidance.html.
   directly from the general ledger or
   subsidiary ledgers or from worksheets             The guides discuss accountability standards
   reconciled to the accounts;                       in the areas of financial management, internal
                                                     controls, audit, and reporting. The guides
   Personnel costs charged to grant projects         also contain sections on unallowable costs
   were not supported by adequate                    and shortcomings to avoid. In addition, the
   documentation, e.g., personnel activity           guides include short lists of useful references
   reports were not maintained to support            and some sample documentation forms.
   allocations of personnel costs to NEA
   projects when required;                           SECTION 3 – Recommendations in
                                                     Previous Reports on Which Corrective
   The amount allocated to grant projects for        Action Has Not Been Implemented
   common (indirect) costs which benefited
   all projects and activities of the                There were no significant recommendations
   organization was not supported by                 in previous reports on which corrective action
   adequate documentation; and                       has not been implemented.

   Grantees needed to improve internal               SECTION 4 – Matters Referred to
   controls, such as ensuring proper                 Prosecuting Authorities
   separation of duties to safeguard
   resources and including procedures for            No matters were referred to prosecuting
   comparing actual costs with the budget.           authorities during this reporting period.

                                                     SECTION 5 – Denials of Access to
                                                     Records

                                                     No denials of access to records occurred
                                                     during this reporting period.




                                                                                                 5
            SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                   DATE OF
NUMBER                                                         TITLE                                                                     REPORT


                                                     Limited Scope Audits

LS-11-01    American Samoa Council on Arts. Culture & Humanities (AS) .........................................................................
                                                                                                                      7/15/11

LS-11-02    Maryland State Arts Council (MD) ....................................................................................................................
                                                                                                                                        7/25/11



                              Financial Management System & Compliance Evaluations
                                                                                                                                                                        08
SCE-11-02   Baltimore Symphony Orchestra (MD) ...............................................................................................................
                                                                                                                                    9/07/11


                                                                Memoranda

M-11-01     Waiver of Matching Requirements for Insular Territories ..................................................................................
                                                                                                                             6/16/11

M-11-02     Litchfield Performing Arts Method of Funding (CT)...........................................................................................
                                                                                                                               9/07/11


                                                                 Contacts

                           Telephone Calls………………………………………………………………….                                                                1
                           Email ……………………………………………………………………………..                                                                    1
                           Standard Mail…………………………………………………………………….                                                                 0
                           Referred by Other Sources……………………………………………………..                                                          1
                           Fax………………………………………………………………………………..                                                                      0

                                                          Total Contacts – 3




                                                                                                                                                                    6
    SECTION 7 – Listing of Particularly               SECTION 10 – Audit Reports, Inspection
    Significant Reports                                   SECTION
                                                      Reports,    and 10   – Audit Reports,
                                                                        Evaluation     ReportsInspection
                                                                                                 Issued
                                                          Reports,
                                                      Before          and Evaluation Reports
                                                               the Commencement                      Issued
                                                                                          of the Reporting
    There were no particularly significant reports        Before
                                                      Period   for the  Commencement
                                                                     Which   No Management    of the  Reporting
                                                                                                  Decision
    during the reporting period.                      HasPeriod     for Which
                                                            Been Made      by theNoEndManagement      Decision
                                                                                          of the Reporting
    .                                                     Has Been Made by the End of the Reporting
                                                      Period
      SECTION 8 – Statistical Tables Showing              Period
    Total Number of Audit Reports, Inspection         As shown on Table I, there were two audit
    Reports, and Evaluation Reports and the           reports  issuedon
                                                          As shown      before
                                                                           Tablethe   commencement
                                                                                  I, there was one audit of
    Dollar Value of Questioned Costs                  the report
                                                           reporting  period
                                                                  issued       for which
                                                                           before         no management
                                                                                    the commencement        of the
                                                      decision   has period
                                                          reporting   been made      by the
                                                                              for which   noend   of the
                                                                                             management
    Table I of this report presents the statistical   reporting
                                                          decisionperiod.
                                                                     has been made by the end of the
    information showing the total number of               reporting period.
    audit reports, inspection reports, and            SECTION 11 – Significant Revised
    evaluation reports and the total dollar value         SECTION 11
                                                      Management           – Significant
                                                                        Decisions     MadeRevised
                                                                                             During the
    of questioned costs.                                  Management Decisions Made During the
                                                      Period
                                                          Period
    SECTION 9 – Statistical Tables Showing            No significant revised management decisions
    Total Number of Audit Reports, Inspection         wereNomade     duringrevised
                                                              significant    the reporting   period. decisions
                                                                                      management
    Reports, and Evaluation Reports and the               were made during the reporting period.
    Dollar Value of Recommendations that              SECTION 12 – Significant Management
    Funds be Put to Better Use by                         SECTION
                                                      Decisions      With  – Significant
                                                                       12 Which            Management
                                                                                    the Inspector    General
    Management                                            Decisions With Which the Inspector General
                                                      Disagrees
                                                          Disagrees
    As shown on Table II, there were no audit         There were no significant management
    reports, inspection reports and evaluation        decisions   that the
                                                          There were     no Inspector
                                                                             significantGeneral   disagreed
                                                                                         management
    reports with recommendations that funds be        withdecisions
                                                            during the   reporting
                                                                      that           period.General disagreed
                                                                            the Inspector
    put to better use by management.                      with during the reporting period.




\



                                                                                                         7
                                                      TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS


                                                                     QUESTIONED UNSUPPORTED                     POTENTIAL
                                                      NUMBER             COSTS                COSTS             REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                              2             172,931              (172,931)              93,485


  B. Which were issued during the reporting
      period                                               0                        0                 (0)                  0


      Subtotals (A + B)                                    2             172,931              (172,931)              93,485


  C. For which a management decision was
      made during the reporting period                     0                       0                  (0)                  0


      (i)     Dollar value of disallowed costs             0                       0                  (0)                  0


      (ii)    Dollar value of costs not
             disallowed                                    1             1,481,539          (1,481,539)            373,630


  D. For which no management decision has
      been made by the end of the reporting
      period                                               2               172,931            (172,931)              93,485


      Reports for which no management
      decision was made within six months of
      issuance                                             2              172,931             (172,931)              93,485




1/ The potential refund amount usually will not equal the questioned cost amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is
   reduced significantly as a result of the audit followup process, which includes examination of documentation submitted by the
   grantee.




                                                                                                                                  8
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                             DOLLAR
                                                    NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                            0        0

 B. Which were issued during the reporting
    period                                            0        0

    Subtotals (A + B)                                 0        0

 C. For which a management decision was made
    during the reporting period                       0        0

    (i)    dollar value of recommendations
           that were agreed to by management          0        0

           - based on proposed management
             action                                   0        0

           - based on proposed legislative action     0        0

    (ii)   dollar value of recommendations that
           were not agreed to by management           0        0

 D. For which no management decision has been
    made by the end of the reporting period           0        0

    Reports for which no management decision
    was made within six months of issuance            0        0




                                                                      9
                                                                                  APPENDIX A


                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the Office of Inspector General (OIG)
                                      questioned because of alleged violation with a provision of
                                      a law, regulation, contract, or other agreement or
                                      document governing the expenditure of funds; such cost is
                                      not supported by adequate documentation; or the
                                      expenditure of funds for the intended purpose is
                                      unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to the NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      occurs when a management decision was made.
                              APPENDIX B




   STRATEGIC PLAN
          &
FIVE-YEAR AUDIT PLAN
      2012 - 2016




 National Endowment for the Arts
   Office of Inspector General
            October 2011
                                               Table of Contents

                                                                                                                           Page

INTRODUCTION ........................................................................................................... 1

     Foreword .................................................................................................................. 1

     OIG Mission Statement ............................................................................................ 1

     Duties and Responsibilities of the Inspector General ............................................... 2

     Authority of the Inspector General ............................................................................ 3

     Jurisdiction of the Inspector General ........................................................................ 3

     Planning Methodology .............................................................................................. 4

     OIG Resource Requirements .................................................................................... 5

STRATEGIC ISSUE AREAS .......................................................................................... 5

     Issue Area 1: NEA Program Activities ..................................................................... 5

     Issue Area 2: NEA Administrative Operations ......................................................... 7

     Issue Area 3: OIG Administration and Investigations .............................................. 8

PERFORMANCE MEASURES ..................................................................................                       10

FIVE-YEAR AUDIT PLAN ............................................................................................. 11

     FY 2012 Audit Plan ................................................................................................. 12

     FY 2013 Audit Plan ................................................................................................. 13

     FY 2014 Audit Plan ................................................................................................. 14

     FY 2015 Audit Plan ................................................................................................. 15

     FY 2016 Audit Plan ................................................................................................. 16

     Other Activities ........................................................................................................ 17
INTRODUCTION


Foreword
The Office of Inspector General (OIG) of the National Endowment for the Arts (NEA) was
established in 1989 pursuant to Public Law 100-504, "The Inspector General Act Amendments
of 1988" (IG Act). On October 14, 2008, the President signed the Inspector General Reform
Act of 2008, Public Law 110-409, which amends the previous IG Act to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and other purposes. This document describes the plan of the OIG for
discharging its ongoing responsibilities under the Act, and for meeting its operational objectives
for the period from fiscal year 2012 through fiscal year 2016.

This strategic plan is also a response to the General Accounting Office Report No. B-244053,
"Inspectors General: Action Needed to Strengthen OIGs at Designated Federal Entities." That
report recommended that the OIGs develop strategic plans, prepare annual work plans for each
year of a five-year period, and report the plans to their entity heads and, in their semiannual
reports, to the Office of Management and Budget and the Congress.

OIG Mission Statement
The Office of Inspector General, National Endowment for the Arts, is a team of skilled
personnel dedicated to helping the Agency reach its essential goals and objectives. To this
end, the Office of Inspector General independently conducts activities such as audits,
evaluations, investigations and special reviews with accuracy, balance and objectivity. Working
with management to help avoid problems before they occur, our mission is to: promote
economy, efficiency and effectiveness in NEA activities; prevent and detect fraud, waste and
abuse; advocate ethics in government; and keep the Chairman and the Congress fully and
currently informed about problems and deficiencies relating to the administration of NEA
programs and operations.

In achieving our mission, the staff of the Office of Inspector General will be fair and equitable,
performing our duties with honesty and integrity. We will strive to be leaders and innovators in
our field of expertise, and will be accountable for meeting our responsibilities. We will
cooperate with all components of the NEA, giving proper recognition to the rights, authorities
and duties of its employees and the public it serves.




                                                                                                     1
Duties and Responsibilities of the Inspector General

The Inspector General shall:

   Provide policy direction for, and conduct, supervise, and coordinate audits (including
   evaluations and other reviews that are conducted in accordance with applicable government
   standards) and investigations relating to the programs and operations of the NEA;

   Review existing and proposed legislation and regulations to determine their impact on
   economy and efficiency in the administration of, and the prevention and detection of fraud,
   waste and abuse in, the NEA programs and operations;

   Recommend policies and conduct, supervise, or coordinate activities both internal and
   external to the NEA, for the promotion of economy and efficiency, and the prevention and
   detection of fraud, waste and abuse in NEA programs and operations.

   Keep the NEA Chairman and the Congress fully and currently informed concerning fraud
   and other serious problems, abuses, and deficiencies relating to the administration of
   programs and operations financed by the NEA, or the identification and prosecution of
   participants committing such fraud or abuse;

   Comply with standards established by the Comptroller General of the United States for
   audits of Federal establishments, organizations, programs, activities and functions (the
   Government Auditing Standards);

   Give particular regard to the activities of the Comptroller General of the United States with a
   view toward avoiding duplication and ensuring effective coordination and cooperation;

   Establish guidelines for determining when it shall be appropriate to use non-Federal
   auditors, and give due regard to assuring that any work performed by non-Federal auditors
   complies with the Comptroller General's standards; and

   Report expeditiously to the Attorney General whenever the Inspector General has
   reasonable grounds to believe there has been a violation of Federal criminal law.




                                                                                                 2
Authority of the Inspector General
To carry out these responsibilities, the Congress has given the Inspector General:

   Access to all records, reports, audits, reviews, documents, papers, recommendations, or
   other material available to the NEA which relate to its programs and operations;

   Authority to conduct such investigations and reviews that are, in the judgment of the
   Inspector General, necessary or desirable;

   Authority to request information or assistance from any Federal, state or local government
   agency or unit thereof, as may be necessary for carrying out the duties and responsibilities
   of the Inspector General Act;

   Authority to issue subpoenas;

   Authority to administer and take an oath, affirmation or affidavit from any person when
   necessary;

   Direct and prompt access to the Chairman;

   Authority to select, appoint and employ such officers and employees as may be necessary
   for carrying out the functions, powers and duties of the OIG; and

   Within the limits of the established budget, authority to contract for audits, studies, analyses
   and other services.

Jurisdiction of the Inspector General
The OIG consolidates audit and investigative capabilities under the direction of a single official,
the Inspector General, who in turn reports directly to the Chairman and the Congress. Three
important features characterize the OIG: independence, objectivity and integrity.

Although under the Chairman’s general supervision, the Chairman may not prevent or prohibit
the IG from initiating, performing, or completing any audit or investigation. The IG is also
vested with special authorities that facilitate the performance of his or her mandate, and it is
from these provisions that the element of independence derives.

The IG legislation states that there should be no conflicting policy responsibilities between the
IG and the agency, thereby ensuring objectivity and independence. The IG's sole responsibility
is auditing, investigating, and initiating other activities designed to promote economy and
efficiency, and detect and prevent fraud, waste and abuse.




                                                                                                      3
The investigative jurisdiction of the OIG includes all allegations of fraud, abuse and
mismanagement, and any apparent or suspected violations of statute, order, regulation or
directive in connection with any program or operation of the NEA.

The audit jurisdiction of the OIG encompasses a wide range of audit services, including audits,
special reviews, and oversight audit agency (OAA) reviews. Audits are characterized as:
financial or performance; full-scope or limited-scope; and external (focusing on the records of
recipients of NEA funding) or internal (focusing on operations and activities carried on within the
NEA). Special reviews are used to appraise and provide information about particular programs
or projects. They include inspections (typically focused on compliance issues), evaluations
(commonly focused on assessments of grantees’ financial management systems and grantee
compliance), and electronic data processing reviews (focused on data centers, application
systems or telecommunication systems). OAA reviews are examinations of audit reports issued
by other Federal agencies, state auditors, and independent public accountants to determine
whether the results of audits have either a past, current or potential effect on NEA awards and
what action, if any, is required by the NEA. In addition, reviews may be conducted of individual
awards to ensure proper reporting of expenditures.

The Inspector General's jurisdiction also includes the review of existing and proposed
legislation and regulations relating to NEA programs and activities. This is essentially a
reactive activity, limited to commenting on and making recommendations about the impact of
the legislation or regulation on economy and efficiency or the prevention of fraud, waste and
abuse. As an adjunct to the legal requirement, the Inspector General is consulted as a matter
of agency policy prior to issuance of internal directives and other significant pronouncements.

The Inspector General's jurisdiction is not always limited to the areas listed above. The IG may,
as circumstances dictate, be given special assignments by the Chairman.

Planning Methodology
The planning methodology that we have adopted is built around the concepts of issue areas
and issues. Issue areas are broad categories of prime importance: they highlight the priorities
of our customers -- Agency management, the Congress, and the American people -- and
contain a number of narrower topics or individual issues. The individual issues, expressed as
questions, represent an assessment of the most significant concerns facing the NEA.

The methodology also includes the formulation of annual audit work plans. The annual plan
defines the work to be done by: identifying individual jobs; assigning priorities; linking jobs to
the strategic issue areas; allocating staff among issue areas and issues; and serving as a
device for communicating with NEA officials. The work plans will, of course, require periodic
updates to reflect shifts in issue emphasis as well as changes in audit resources.




                                                                                                     4
It is expected that issue area planning will:

   Establish multi-year audit objectives consistent with Agency and congressional needs;

   Focus OIG resources on issues that represent the greatest risk to the NEA and those that
   offer the most opportunity for adding value;

   Reflect the OIG's budget requests and resource allocation decisions; and

   Provide a basis for measuring results and ensuring accountability.

OIG Resource Requirements
The OIG staff consists of four full-time positions, namely, the IG and three other auditors.
Currently, there are three staff members on board, the IG and two auditors. The OIG is actively
recruiting to fill an auditor’s position. There is no investigator or general counsel on the staff.
To provide a reactive investigative capability, we have a Memorandum of Understanding with
the Inspector General of the General Services Administration (GSA) whereby the GSA's OIG
agrees to provide investigative coverage for us on a reimbursable basis as needed. We also
have a Memorandum of Understanding with the National Credit Union Administration’s (NCUA)
Office of Inspector General that details procedures to be used for providing the OIG with legal
services pursuant to the new requirements reflected in the 2008 Act.

It is possible that the resources provided for the OIG may, at some time, need to be changed.
Any such adjustment should be based on periodic evaluations of the OIG as gauged by the
performance measures identified in this strategic plan and available resources.


                         STRATEGIC ISSUE AREAS
Issue Area 1:      NEA Program Activities

                   Major functions include:

                           Project monitoring; allowable costs; and compliance with reporting
                           requirements, and general terms and conditions
                           Audit followup
                           Grant award process

                Issue 1.1: Does the Agency evaluate completed projects to assess the benefits
                           and accomplishments attributable to NEA funding?

                           Strategy: The OIG will work with management to assess the
                           effectiveness of Agency practices for reviewing the results obtained
                           by recipients' projects as well as NEA's program initiatives.

                Issue 1.2: Does the Agency ensure that the recipients of NEA funding are held
                           accountable for meeting their particular reporting requirements and
                           for complying with the terms and conditions applicable to their
                           awards?


                                                                                                  5
           Strategy: The OIG will conduct audits, special reviews (such as
           evaluations) and OAA reviews to verify accountability, allowability,
           and compliance with terms and conditions. In addition, the OIG will
           continue to review the implementation of corrective actions and
           advise management as to the effectiveness of the actions and
           whether the desired results were achieved. Furthermore, the OIG will
           provide technical assistance to grantees on how to maintain a
           financial management system and on how to comply with the financial
           aspects of the terms and conditions.


Issue 1.3: Are NEA's standards for determining grantee eligibility consistent with
           the Agency’s mission and legislated objectives?

           Strategy: The OIG will survey these measures to assess Agency
           compliance and evaluate the extent to which stated purposes are
           being achieved.

Issue 1.4: Does NEA provide potential applicants with information that is both
           appropriate and adequate regarding its funding initiatives?

           Strategy: The OIG will survey this function to assess timeliness,
           adequacy of content, and effectiveness in reaching potential
           applicants.

Issue 1.5: Does the NEA ensure that applications are processed and evaluated
           in accordance with legislative requirements and Agency policies?

           Strategy: The OIG will survey and document the existing policies
           and procedures at the Agency program level, Panel level and the
           Council level. Subsequent efforts will focus on areas in which
           compliance may be improved.

Issue 1.6: Do NEA’s policies and procedures for its AccessAbility program
           adequately provide a framework consistent with legislative
           requirements?

           Strategy: The OIG will conduct surveys and analyses as warranted
           to assess policies and initiatives for promoting AccessAbility’s goals
           and objectives.




                                                                                    6
Issue Area 2:      NEA Administrative Operations

                   Major functions include:

                       Information systems
                       Financial management
                       Budget administration
                       Procurement and facilities
                       Human resources
                       Internal controls
                       Freedom of Information and Privacy Acts

            Issue 2.1: Is the Agency efficiently and effectively addressing the need to
                       modernize its information management systems, and in a manner
                       that allows it to continue meeting current operational needs while
                       maintaining consistency with provisions of the Computer Security Act,
                       OMB Circular No. A-130 and the Federal Information Security
                       Management Act of 2002?

                          Strategy: The OIG will continue to assist management by:
                          participating in task groups; periodically reviewing and commenting
                          on implementation issues; and performing internal control reviews on
                          new systems with a focus on security and problem prevention.

                Issue 2.2: Does the Agency's financial management system provide the
                           management information needed for: (1) budget planning and
                           formulation, budget allocation, and budget review and follow up; and
                           (2) monitoring costs and expenditures in accordance with the
                           requirements and initiatives of Congress, OMB, the Department of the
                           Treasury, and the Accountability of Tax Dollars Act of 2002?

                          Strategy: The OIG will conduct, through an independent auditor,
                          financial related audits to verify the integrity of budget execution, the
                          propriety of transactions, the validity of account balances, and the
                          accuracy of financial reports.

                Issue 2.3: Does the Agency effectively assure that procurement actions comply
                           with Federal and Agency requirements?

                          Strategy: The OIG will periodically review NEA's procurement
                          activities in accordance with Federal and Agency requirements.




                                                                                                      7
            Issue 2.4: Do NEA's policies and procedures provide a framework for the
                       efficient and effective use of human resources that are consistent with
                       EEO goals and objectives?

                       Strategy: The OIG will conduct surveys and analyses as warranted
                       to: (1) identify patterns and trends; (2) evaluate Agency
                       responsiveness to employee complaints or grievances; and (3)
                       assess management initiatives for promoting EEO goals and
                       objectives.

            Issue 2.5: Are the Agency's internal controls adequate to deter and detect fraud,
                       waste, abuse, and mismanagement?

                       Strategy: The OIG will conduct audits and other reviews to uncover
                       any weaknesses in internal controls and will prepare management
                       reports with recommendations for corrective action, if applicable.

            Issue 2.6: Do the Agency's policies and procedures on FOIA and the Privacy Act
                       adhere to Federal laws and regulations?

                       Strategy: The OIG will periodically review the Agency’s policies and
                       procedures for adherence to the Federal laws and regulations.


Issue Area 3:   OIG Administration and Investigations

                Major Functions Include:

                   Audit universe
                   Lines of communication
                   Allegations’ review
                   Staff professionalism
                   Regulatory review


            Issue 3.1: Does the OIG maintain an up-to-date audit universe, complete with
                       weighted criteria for assessing audit priorities?

                       Strategy: The OIG will update its universe of discrete auditable
                       areas, revising and prioritizing the criteria as appropriate.

            Issue 3.2: Does the OIG promote open relations and positive interaction with
                       Agency officials and others?




                                                                                              8
           Strategy: The OIG will: seek frequent feedback from the Chairman,
           senior staff and Agency managers as appropriate; actively participate
           on NEA committees or task forces when opportunities exist to add
           value. In addition, the OIG, when appropriate, will establish relations
           with Congressional committees, GAO, the Department of Justice and
           other law enforcement agencies, and the OIG community.

Issue 3.3: Does the OIG maintain an investigative capability that is appropriate
           for the NEA?

           Strategy: The OIG will continue to maintain a formal memorandum
           of understanding with the General Services Administration's (GSA)
           OIG to provide for the temporary assignment of professional criminal
           investigators as needed. OIG auditors will screen allegations and
           other indications of possible misconduct to determine whether there is
           a sufficient basis for investigation. If so, the OIG will, as appropriate,
           either refer the case to another investigative authority, request the
           temporary assignment of a criminal investigator from GSA's OIG, or
           investigate the case as a civil matter with the expectation that, after
           the necessary evidence is gathered and evaluated, the matter will be
           referred to NEA management for administrative action.

Issue 3.4: Does the OIG foster the professional growth of the OIG staff?

           Strategy: The OIG will establish a staff feedback process to
           encourage the open exchange of information and ideas, and will
           continue to budget training funds adequate to satisfy the continuing
           education standards established by the Comptroller General.

Issue 3.5: Does the OIG review existing and proposed legislation and
           regulations to determine their effect on the programs and operations
           of the NEA?

           Strategy: The OIG will continue to work with management, devising
           a process for ensuring that legislative and regulatory proposals are
           evaluated for their impact on the Agency.




                                                                                    9
                      PERFORMANCE MEASURES
These measures are expected to help the OIG recognize successes, document achievements,
evaluate progress toward goals, and identify needs for improvement. The measures are
structured along the requirements of the IG Act and are intended to allow comparisons to
previous periods.

   Feedback from customers on the value added by audit reports and other reviews of
   programs and operations;

   Assessment of the significance of recommendations implemented to correct deficiencies,
   which should lead to improved operations;

   The number of technical and advisory activities that benefited from OIG participation;

   The number of laws and regulations reviewed.




                                                                                            10
                            FIVE-YEAR AUDIT PLAN
                                  2012 - 2016

The following list of audits and audit-related efforts show how the OIG plans to use its available
audit resources to implement the strategies previously discussed. The objectives of each
project have been identified along with a short description of the work to be performed. While
the plan is flexible and subject to revision based on management's input and changing
conditions, it reflects our current assessment of relative risks and the most effective use of
limited audit resources.

Criteria for selection include:

    Statutory requirements and recommendations from other sources of Federal authority such
    as OMB or GAO;

    Requests from the Chairman or other high authority;

    Importance of the activity to the NEA's mission;

    Extent of NEA resources committed to the activity;

    Potential for fraud and other unlawful or improper acts;

    Agency needs as identified through consultation with representatives of management;

    Extent of audit coverage provided by GAO, consultants or other outside sources;

    Newness, changed conditions, or sensitivity of the activity;

    Adequacy of the existing internal control systems for the activity;

    Availability of audit staff with needed expertise; and

    Extent and results of prior reviews by the OIG.



Note: The following pages reflect each year’s audit plan. In addition, on the very last
page there is a list of audits, evaluations or reviews that may be added at any time to
one of the upcoming years. For purposes of our audit plans, “grantee” refers to NEA
grantees, cooperators or contractors.




                                                                                                11
                                     AUDIT PLAN - FY 2012

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees' financial
systems for managing and accounting for Federal funds, 2) evaluate the current financial condition of
grantee organizations, and 3) verify compliance with the terms and conditions of NEA awards. The
number of on-site audits to be conducted will depend on the availability of auditors and travel funds.
Grantee audits will also be impacted the review and reporting requirements of the American Recovery and
Reinvestment Act of 2009 (ARRA), under which NEA received an additional $50 million. However, we
anticipate the number is expected to increase over the number in FY 2010. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial management
systems and ensure that recordkeeping complies with the requirements established by OMB and NEA’s
General Terms and Conditions. Evaluations will be limited to reviewing records of one to two awards.
The availability of auditors, travel funds and the review and reporting requirements for ARRA, will dictate
the number of evaluations. Anticipate more than 15 evaluations this year. (Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to determine whether (1) the Agency’s use of ARRA
funds and program activities are in compliance with ARRA guidelines; and (2) recipients are in compliance
with NEA and ARRA guidelines. The availability of auditors, travel funds and ARRA review and reporting
requirements will dictate the number of evaluations and audits.

OAA Reviews. Conduct desk reviews of audit reports and other materials related to grantees that have
had A-133 audits performed by independent outside auditors to: 1) determine compliance with relevant
OMB circulars, 2) evaluate the audit findings for past, current or potential effect on NEA grants, and 3)
recommend what action, if any, is required by NEA. An indeterminate number of non-OIG audit reports
(probably five or more) will be examined throughout the year. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action and provide the Audit
Followup Official and other NEA managers with technical assistance in resolving audit findings. This
activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine whether
the Agency's ITM policies, procedures, and practices are adequate for meeting its operational and security
needs, and whether they conform to accepted standards and requirements. Review of security matters
will be undertaken in accordance with the Federal Information Security Management Act of 2002. Privacy
review will be done in accordance with OMB Memorandum M-06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the financial
statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the number of
investigative reviews to be conducted cannot be predicted with confidence, in recent years the annual rate
of new cases opened is two to three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on Agency
programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                              12
                                  AUDIT PLAN - FY 2013

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current financial
condition of grantee organizations, and 3) verify compliance with the terms and conditions of NEA
grants. Grantee audits will also be impacted the review and reporting requirements of the American
Recovery and Reinvestment Act of 2009 (ARRA). However, we anticipate the number is expected to
decrease over the number in FY 2012. The number of on-site audits to be conducted will depend
on the availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial management
systems and ensure that recordkeeping complies with the requirements established by OMB and
NEA’s General Terms and Conditions. Evaluations will be limited to reviewing the records of one to
two grants. The availability of auditors, travel funds and the work requirements for ARRA will dictate
the number of evaluations. Anticipate more than 13 evaluations this year. (Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to (1) determine whether ARRA recipients are in
compliance with NEA and ARRA guidelines, and (2) compare grantees’ reported versus projected
data concerning numbers, types, and locations of jobs preserved with NEA’s ARRA grants. The
availability of auditors, travel funds and ARRA review and reporting requirements will dictate the
number of evaluations and audits.

OAA Reviews. Conduct desk reviews of audit reports and other materials related to grantees that
have had A-133 audits performed by independent outside auditors to: 1) determine compliance with
relevant OMB circulars, 2) evaluate the audit findings for past, current or potential effect on NEA
grants, and 3) recommend what action, if any, is required by NEA. An indeterminate number of non-
OIG audit reports (probably five or more) will be examined throughout the year. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the Audit
Followup Official and other NEA managers with technical assistance in resolving audit findings.
This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its operational
and security needs, and whether they conform to accepted standards and requirements. Review of
security matters will be undertaken in accordance with the Federal Information Security
Management Act of 2002. Privacy review will be done in accordance with OMB Memorandum M-
06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on Agency
programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                     13
                                  AUDIT PLAN - FY 2014

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current financial
condition of grantee organizations, and 3) verify compliance with the terms and conditions of NEA
grants. The number of on-site audits to be conducted will depend on the availability of auditors and
travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial management
systems and ensure that recordkeeping complies with the requirements established by OMB and
NEA’s General Terms and Conditions. Evaluations will be limited to reviewing the records of one to
two grants. The availability of auditors and travel funds will dictate the number of evaluations.
Anticipate more than 13 evaluations this year. (Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to (1) determine whether ARRA recipients are in
compliance with NEA and ARRA guidelines, and (2) compare grantees’ reported versus projected
data concerning numbers, types, and locations of jobs preserved with NEA’s ARRA grants. ARRA
evaluations and audits will be incorporated into review process with other NEA grants awarded to
the recipient. The availability of auditors, travel funds and ARRA review and reporting requirements
will dictate the number of evaluations and audits.

OAA Reviews. Conduct desk reviews of audit reports and other materials related to grantees that
have had A-133 audits performed by independent outside auditors to: 1) determine compliance with
relevant OMB circulars, 2) evaluate the audit findings for past, current or potential effect on NEA
grants, and 3) recommend what action, if any, is required by NEA. An indeterminate number of non-
OIG audit reports (probably five or more) will be examined throughout the year. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the Audit
Followup Official and other NEA managers with technical assistance in resolving audit findings.
This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its operational
and security needs, and whether they conform to accepted standards and requirements. Review of
security matters will be undertaken in accordance with the Federal Information Security
Management Act of 2002. Privacy review will be done in accordance with OMB Memorandum M-
06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on Agency
programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                   14
                                  AUDIT PLAN - FY 2015

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current financial
condition of grantee organizations, and 3) verify compliance with the terms and conditions of NEA
grants. The number of on-site audits to be conducted will depend on the availability of auditors and
travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial management
systems and ensure that recordkeeping complies with the requirements established by OMB and
NEA’s General Terms and Conditions. Evaluations will be limited to reviewing the records of one to
two grants. The availability of auditors and travel funds will dictate the number of evaluations.
Anticipate more than 20 evaluations this year. (Issue 1.2)

OAA Reviews. Conduct desk reviews of audit reports and other materials related to grantees that
have had A-133 audits performed by independent outside auditors to: 1) determine compliance with
relevant OMB circulars, 2) evaluate the audit findings for past, current or potential effect on NEA
grants, and 3) recommend what action, if any, is required by NEA. An indeterminate number of non-
OIG audit reports (probably five or more) will be examined throughout the year. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the Audit
Followup Official and other NEA managers with technical assistance in resolving audit findings.
This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its operational
and security needs, and whether they conform to accepted standards and requirements. Review of
security matters will be undertaken in accordance with the Federal Information Security
Management Act of 2002. Privacy review will be done in accordance with OMB Memorandum M-
06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on Agency
programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                   15
                                  AUDIT PLAN - FY 2016

Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current financial
condition of grantee organizations, and 3) verify compliance with the terms and conditions of NEA
grants. The number of on-site audits to be conducted will depend on the availability of auditors and
travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial management
systems and ensure that recordkeeping complies with the requirements established by OMB and
NEA’s General Terms and Conditions. Evaluations will be limited to reviewing the records of one to
two grants. The availability of auditors and travel funds will dictate the number of evaluations.
Anticipate 20 or more evaluations this year. (Issue 1.2)

OAA Reviews. Conduct desk reviews of audit reports and other materials related to grantees that
have had A-133 audits performed by independent outside auditors to: 1) determine compliance with
relevant OMB circulars, 2) evaluate the audit findings for past, current or potential effect on NEA
grants, and 3) recommend what action, if any, is required by NEA. An indeterminate number of non-
OIG audit reports (probably eight or more) will be examined throughout the year. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the Audit
Followup Official and other NEA managers with technical assistance in resolving audit findings.
This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its operational
and security needs, and whether they conform to accepted standards and requirements. Review of
security matters will be undertaken in accordance with the Federal Information Security
Management Act of 2002. Privacy review will be done in accordance with OMB Memorandum M-
06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on Agency
programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                   16
                                   OTHER ACTIVITIES *

Accessibility. Review the Agency’s policies and procedures for compliance with laws and
regulations governing accessibility. (Issue 1.6)

EEO. Review the Agency’s policies and procedures for compliance with laws and regulations
governing equal employment opportunities and the civil rights of NEA employees. (Issue 2.4)

FOIA. Review the Agency’s policies and procedures for adherence to Federal laws and regulations.
(Issue 2.6)

Grant Award Process. Review the Agency’s policies and procedures for providing potential
applicants with information that is appropriate and accurate. The review also will assess timeliness,
adequacy of content, and effectiveness in reaching potential applicants. (Issue 1.4) Review the
Agency’s policies and procedures employed by NEA staff, advisory panelists and Council
Operations in the screening of grant applications and the awarding of grants to ensure there is fair
and equitable treatment along with proper enforcement of the eligibility rules. (Issues 1.3 and 1.5)

Procurement. Review the Agency’s procurement activities for compliance with Federal regulations
and Agency policies. (Issue 2.3)

Supply Management. Review policies and procedures to uncover any weaknesses in
administrative controls. (Issue 2.5)

Transit Benefits. Review and test for adequacy of controls over Agency’s transit benefits program.
(Issue 2.5)

Travel. Review NEA’s controls related to approving and monitoring the travel of Agency employees.
In addition, ensure that travel’s purpose is both reasonable and appropriate to Agency’s mission.
(Issue 2.5)

*   The above areas may be considered at any time for an audit, evaluation or review based on the
    discretion of the OIG.




                                                                                                   17
                    REPORTING WRONGFUL ACTS
Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs, should
contact the OIG immediately. A complaint/referral may be reported using any of the following
methods:
               Toll-free OIG Hotline: 1-877-535-7448
               Local Calls: 202-682-5479
               Fax: 202-682-5649
               Email: oig@arts.gov
               Website: www.arts.gov/about/oig/fraud.html


You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.

When contacting the OIG, it will help if you have answers to the following questions:

       Who are the parties involved (names, addresses and phone numbers if possible);

       What is the suspected activity (specific facts of the wrongdoing);

       When and where did the wrongdoing occur;

       How did you learn about the activity (from a third party, actual observation, conclusion
       drawn from observing or performing different activities, etc.); and

       Where can you be contacted or when will you contact us again.
The OIG will not disclose the identity of a complainant or informant without consent, unless the
Inspector General determines that such disclosure is unavoidable during the course of the
investigation. You may remain anonymous, if you choose. Federal employees are protected
against reprisal for disclosing information to the Inspector General unless such disclosure was
knowingly false.
